tN

OCKLE

2311 Douglas Street CA . “ E-Mail Address:
Omaha, Nebraska 68102-1214 L € & a | B ut cfs contact@cocklelegalbriefs.com
’ 23
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1780

STATE OF NORTH DAKOTA
Petitioner,
v.
UNITED STATES ENVIRONMENTAL.
PROTECTION AGENCY, ET AL..
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1 certify that the REPLY BRIEF OF
PETITIONER STATE OF NORTH DAKOTA in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2989 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of August, 2021.
am duly authorized under the laws of the State of Nebraska to administer oaths.

Sree | Aemee 0 taoe Ondbaoh. Obl
ity

Comm. Exp. September §, 2023 §
Affiant 41331

 

Notary Public
